<html>
<title> - STATE OF RELIGIOUS LIBERTY IN THE UNITED STATES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   STATE OF RELIGIOUS LIBERTY IN THE 
                             UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2011

                               __________

                           Serial No. 112-63

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
70-913                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             [Vacant]
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                    TRENT FRANKS, Arizona, Chairman

                   MIKE PENCE, Indiana, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            MIKE QUIGLEY, Illinois
STEVE KING, Iowa                     JOHN CONYERS, Jr., Michigan
JIM JORDAN, Ohio                     ROBERT C. ``BOBBY'' SCOTT, 
                                     Virginia

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                            OCTOBER 26, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................     3

                               WITNESSES

William C. Lori, Bishop of Bridgeport, CT
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8
Barry W. Lynn, Reverend, Americans United for the Separation of 
  Church and State
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
Colby M. May, Esq., Director & Senior Counsel, Washington Office, 
  American Center for Law and Justice
  Oral Testimony.................................................    46
  Prepared Statement.............................................    49

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from William C. Lori, Bishop 
  of Bridgeport, CT..............................................   124
Material submitted by the Honorable Trent Franks, a 
  Representative in Congress from the State of Arizona, and 
  Chairman, Subcommittee on the Constitution
  Letter from John C. Hagee, Cornerstone Church..................   129
  Letter from Rajdeep Singh, Director of Law and Policy, The Sikh 
    Coalition....................................................   131
Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution
  Prepared Statement of Rev. Dr. C. Weldon Gaddy, President of 
    Interfaith Alliance..........................................   134
  Prepared Statement of Suhag A. Shukla, Esq., Managing Director/
    Legal Counsel; Samir Kalra, Esq., Director and Senior Fellow, 
    Human Rights; and Nikhil Joshi, Esq., Member, Board of 
    Directors, the Hindu American Foundation.....................   138
  Prepared Statement of Joe Solmonese, President, Human Rights 
    Campaign.....................................................   151
  Prepared Statement of Marc D. Stern, Esq., Associate General 
    Counsel for Legal Advocacy, the American Jewish Committee 
    (AJC)........................................................   154
  Letter from Paul J. Kurtz, Chairperson, and Normal Allen, Jr., 
    Director of International Outreach, the Institute for Science 
    and Human Values (ISHV)......................................   167
  Letter from Jon O'Brien, President, Catholics for Choice.......   169
Material submitted by William C. Lori, Bishop of Bridgeport, CT
  Letter from the Most Reverend Timothy M. Dolan, Archbishop of 
    New York.....................................................   171
  Article titled ``Battle flare between White House. Catholic 
    Groups,'' by Jerry Markon, The Washington Post...............   186


            STATE OF RELIGIOUS LIBERTY IN THE UNITED STATES

                              ----------                              


                      WEDNESDAY, OCTOBER 26, 2011

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:40 p.m., in 
room 2141, Rayburn Office Building, the Honorable Trent Franks 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Chabot, King, Jordan, 
Nadler, Quigley, and Scott.
    Staff present: (Majority) Zach Somers, Counsel; Sarah 
Vance, Clerk; (Minority) David Lachmann, Staff Director; and 
Veronica Eligan, Professional Staff Member.
    Mr. Franks. Good afternoon. This Constitution Subcommittee 
is called to order this afternoon for the important purpose of 
examining the state of religious liberty in America. This is 
something, in my opinion, that this Committee should do on a 
regular basis, because religious liberty and freedom of 
conscience are the source of all other liberties that mankind 
has been endowed with. They occupy an absolutely essential 
place among our unalienable rights.
    It is interesting to remind ourselves that Christopher 
Columbus was exercising his religious liberty when he went out 
into the oceans to find a new world and came upon America. It 
is also interesting to note that those who first colonized this 
Nation from England came here in search of religious freedom, 
religious liberty, and when they brought their Constitution 
forward, they had debates about the subject.
    One Richard Henry Lee, in the discussion that preceded the 
composition of our Constitution, said ``It is true, we are not 
disposed to differ much at present about religion. But when we 
are making a constitution, it is to be hoped for ages and 
millions yet unborn, why not establish the free exercise of 
religion as part of the national compact?'' What an insightful 
question that he asked at the time. I am grateful that they 
proceeded on that basis.
    Without religious liberty and freedom of conscience, all 
other liberties would cease to exist. That is why, from the 
Magna Carta to our own Bill of Rights, religious freedom has 
been recognized as the ``first liberty.''
    Religious freedom and a thriving religious culture have 
always been defining attributes of life in America. Today, the 
United States is, comparatively speaking, a very religious 
Nation. In fact, polls show that well over 90 percent of 
Americans actually believe in God. Despite the fundamental 
nature of religious freedom and its importance in American 
life, it has come under attack in recent years as never before. 
If it is to be preserved, we must be more awake and more 
vigilant than ever before.
    We must remember that religious liberty involves much more 
than freedom of worship alone. Religious liberty is exercised 
both in private and in public and includes the freedom to build 
and operate all the institutions of religion.
    Unfortunately, those who lack appreciation for the public 
component of religious liberty, and those who fail to see the 
need to make religious exceptions from many generally 
applicable laws, are putting the religious freedom that we 
cherish so much in grave danger for us all. Rather than taking 
advantage of the ample room the Constitution leaves for the 
accommodation of religion, increasingly Federal, state, and 
local governments are failing to create religious exemptions 
from otherwise neutral laws. As one prominent scholar of 
religious liberty has observed, government officials should 
``regard the free exercise of religion not primarily as a 
danger to be contained or a nuisance to be managed but as a 
human, social, and political good to be both protected and 
promoted.''
    However, so-called anti-discrimination policies that make 
no exception for religious beliefs are increasingly posing an 
ominous threat to religious liberty. For most religious groups, 
public service is a constituent element of their religious 
beliefs. Religious groups in America establish hospitals, 
operate homeless shelters, provide counseling services, and run 
agencies for adoption and foster care for children who might 
otherwise have no one in the world.
    But in the name of anti-discrimination or neutrality, these 
traditional religious services to the sick and less fortunate 
are threatened as Federal, state, and local governments 
increasingly regulate private social services in ways that will 
not accommodate or even tolerate many religious beliefs on an 
otherwise neutral basis. These regulations are forcing 
religious groups to choose between abandoning their social work 
or abandoning their sincerely held religious beliefs in order 
to continue to serve the needy.
    Additionally, there are some who wish to use the 
Establishment Clause to eradicate free religious expression in 
a manner that is the complete antithesis of the original intent 
of that noble clause in our Constitution. They wish to vanquish 
any acknowledgement of religion from the public square, pushing 
traditional religion behind closed doors and replacing it in 
public life with a new orthodoxy of leftist secularism.
    That America is a Nation founded upon the Judeo-Christian 
principles of the Bible is an irrefutable axiom of history. Our 
very first president and father of our country, George 
Washington, hand-wrote in his own personal prayer book, ``It is 
impossible to rightly govern the world without God and the 
Bible.'' Thomas Jefferson, our third president and one of the 
critical writers of our Declaration of Independence, authored 
the first plan of education to use the Bible for teaching and 
reading to students. Abraham Lincoln, our 16th president, said 
``I believe the Bible is the best gift God has given to man. 
All the good savior gave to the Earth was communicated through 
this book.''
    Now the Nation and the Constitution those leaders built and 
gave to ensuing generations also gave us the power as 
individuals to reject the religious beliefs that motivated them 
to do so. But we do not have the right to redact the history of 
our Nation's religious heritage or to crush the religious 
expression of individuals who still hold it in their hearts.
    So oftentimes those who would trample underfoot the 
religious freedom of their fellow Americans do so in the name 
of a ``strict wall of separation between church and state.'' 
But rather than pointing out the profound historical 
misinterpretation of that phrase, I will only remind all of us 
that while that phrase did indeed appear prominently in the 
Soviet constitution, it appears nowhere in the United States 
Constitution.
    The religious freedom protected by the First Amendment 
encompasses more than the ability to seek religious truth 
behind the walls of worship. It includes the right to embrace 
and express one's religious beliefs in public. This means that 
Federal, state, and local governments must leave room for 
religious individuals and groups to serve the community in 
accordance with their sincerely held beliefs, welcome religious 
perspectives in the debate over important issues, public 
issues, and allow public acknowledgement of the importance of 
religion in America.
    So, ladies and gentlemen, we should all remind ourselves 
this morning that true tolerance lies not in pretending that we 
have no differences as Americans, but rather in being kind and 
respectful to each other in spite of our differences, religious 
or otherwise, and I hope this hearing can shed light on the 
current state of religious liberty in the United States both in 
terms of areas where we are succeeding in embracing the 
American dream of true religious freedom and in those in which 
we are failing.
    Thank you for being here, and I will yield now to the 
Ranking Member for an opening statement.
    Mr. Nadler. Thank you, Mr. Chairman. I want to begin by 
thanking you for scheduling this hearing on a topic that is 
central to our common American values, our first freedom. I am 
concerned about threats to religious liberty in America, 
threats from legislatures, from the Supreme Court, from 
candidates, and from demagogues. Too often, the rights of 
unpopular minorities are trampled upon by the majority, and 
when it comes to religion, everyone is unpopular somewhere.
    But threats also come from laws not necessarily targeting 
religion. Nonetheless, writing in Employment Division v. Smith, 
Justice Scalia said, ``If prohibiting the exercise of religion 
is merely the incidental effect of a generally applicable and 
otherwise valid provision, the First Amendment has not been 
offended.'' He went on to make the appalling statement that, 
``It may fairly be said that leaving accommodation to the 
political process will place at a relative disadvantage those 
religious practices that are not widely engaged in, but that is 
an unavoidable consequence of democratic government. Precisely 
because we are a cosmopolitan Nation made up of people of 
almost every conceivable religious preference, and precisely 
because we value and protect that religious divergence, we 
cannot afford the luxury of deeming presumptively invalid as 
applied to the religious objector every regulation of conduct 
that does not protect an interest of the highest order.''
    Luxury? That appalling hostility to religious liberty, 
coming as it did from a Justice who is hailed as an icon of the 
conservative movement, was truly chilling. Congress responded 
swiftly with the Religious Freedom Restoration Act or RFRA, 
legislation that I was privileged to work on when I was first 
elected to Congress. It united groups as diverse as the 
American Civil Liberties Union and the National Association of 
Evangelicals.
    The rule it restored, of strict scrutiny, did not provide a 
blanket exemption for all conscientious objections--the Supreme 
Court disposed of that approach in the Estate of Thornton v. 
Caldor--but rather it restored the balancing test that had 
served us so well for three decades. It is by balancing those 
interests, and forcing government to demonstrate an interest of 
the highest order before squelching a religious practice, that 
strikes the right balance.
    Although the Supreme Court invalidated RFRA in the Boerne 
decision in 1997,at least as applied to states--it is still 
good law as applied to the Federal Government--I and Members 
from both sides of the aisle responded with the Religious Land 
Use and Institutionalized Persons Act, which passed in 2000 and 
remains good law.
    But government is not the only threat to religious liberty. 
There are many in this country who continue to oppose the 
construction of houses of worship in our communities. We had a 
particularly ugly incident in my own district, although I am 
proud to say that the local community, local elected officials, 
and our courts stood up to the bigots and demagogues who 
opposed the right of local Muslims to erect a community center.
    There are also those who believe that they have the right 
to deny employment or housing to others based solely on a 
person's religion. While I think most of us would accept that 
the ministerial exemption, the existence and scope of which are 
currently before the Supreme Court, is constitutionally 
mandated, some employers think they have a right either to 
refuse to hire someone, or to refuse to give them time off for 
religious observances, or to refuse to accommodate the wearing 
of religious articles.
    So there are many threats to religious liberty in America 
today, and I am pleased we will have the opportunity to examine 
the broad range of those threats today. I thank you, Mr. 
Chairman. I yield back the balance of my time.
    Mr. Franks. Without objection, the other Members' opening 
statements will be made part of the record.
    And I want to welcome the witnesses and welcome those that 
are observing here today with us.
    Our first witness is Bishop William Lori, the Bishop of 
Bridgeport, Connecticut, and the Chair of the U.S. Conference 
of Catholic Bishops' Committee on Religious Liberty.
    Bishop Lori was ordained to the priesthood in 1977. He 
became Auxiliary Bishop of Washington in 1995, and was 
installed as the Bishop of Bridgeport in 2001. Bishop Lori is 
Chairman of the Board of Trustees of Sacred Heart University 
and past-Chairman of the Board of Trustees of the Catholic 
University of America.
    Our second witness is Reverend Barry Lynn, Executive 
Director of Americans United for Separation of Church and 
State. In addition to his work as an activist and lawyer in the 
civil liberties field, Reverend Lynn is an ordained minister in 
the United Church of Christ. He appears frequently on 
television and radio broadcasts to discuss religious liberty 
issues. He has had essays published in outlets such as USA 
Today and the Wall Street Journal, and in 2006 authored the 
book ``Piety and Politics: The Right-Wing Assault on Religious 
Freedom.''
    Our third and final witness is Colby May, Senior Counsel 
and Director of the Washington office of the American Center 
for Law and Justice. With the ACLJ since 1994, Mr. May 
specializes in Federal litigation, regulatory proceedings, 
communications and technology, non-profit tax issues, and First 
Amendment law. He has represented parties and filed friend of 
the court briefs in several landmark Supreme Court cases. Mr. 
May also serves as adjunct law professor at Regent University 
and on the boards of directors of several civic and charitable 
organizations.
    Each of the witnesses' written statements will be entered 
into the record in its entirety, and I ask that each witness 
summarize his testimony in 5 minutes or less. To help you stay 
within that time, there is a timing light on your table. When 
the light switches from green to yellow, you will have 1 minute 
to conclude your testimony. When the light turns red, it 
signals that the witness' 5 minutes have expired.
    Before I recognize the witnesses, it is the tradition of 
the Subcommittee that they be sworn. So if you will please 
stand to be sworn.
    [Witnesses sworn.]
    Mr. Franks. Thank you. You may take a seat.
    I would now like to recognize our first witness, Bishop 
Lori, for 5 minutes.
    Bishop?

                 TESTIMONY OF WILLIAM C. LORI, 
                    BISHOP OF BRIDGEPORT, CT

    Bishop Lori. Thank you, Mr. Chairman. On behalf of the 
United States Conference of Catholic Bishops, the USCCB, allow 
me to thank you for the inviting me to be with you today to 
offer testimony on religious liberty.
    Religious liberty is not merely one right among others, but 
enjoys a certain primacy. Pope Benedict XVI recently explained: 
``It is indeed the first of human rights, not only because it 
was historically the first to be recognized but also because it 
touches the constitutive dimension of man, his relation with 
his Creator.'' Religious liberty is also first on the list in 
the Bill of Rights, and is commonly called our ``First 
Freedom.''
    Religious liberty is also prior to the state itself. It is 
not merely a privilege that the government grants and so may 
take away at will. Instead, religious liberty is inherent in 
our very humanity, hard-wired into each and every one of us by 
the Creator. This insight is reflected in the laws and 
traditions of our country from inception. The Declaration of 
Independence boldly proclaims as a self-evident truth that our 
inalienable rights are ``endowed by our Creator''--not by the 
State.
    Religious freedom is certainly an individual right, but it 
also belongs to churches and other religious institutions 
comprised of citizens who are believers and who seek, not to 
create a theocracy, but rather to influence their culture from 
within. An indispensable element of religious freedom is the 
right of churches ``not to be hindered, either by legal 
measures or by administrative action on the part of government, 
in the selection, training, appointment, and transferral of 
their own ministers.'' We are grateful that the Federal courts, 
at least to date, have uniformly recognized this protection.
    The Church also teaches that these rights of religious 
freedom are held not just by Catholics. Government has the duty 
``to assume the safeguard of the religious freedom of all its 
citizens in an effective manner, by just laws or by other 
appropriate means.'' The United States stands strongly for the 
principle that these rights of freedom are also rights of 
equality, that government should not impose any special civil 
disadvantages or otherwise discriminate against its citizens 
based on religion.
    Although it may not have always lived up to its principles, 
our country's unique capacity for self-correction has always 
provided avenues to return to these principles. Regrettably, 
now is the time for such self-correction.
    In the last few months we have witnessed grave threats to 
religious liberty. In August, the U.S. Department of Health and 
Human Services issued regulations to mandate the coverage of 
contraception, including abortifacients, and sterilization as 
preventive services in almost all private health insurance 
plans.
    In May, HHS added a new requirement to some of its service 
agreements that would bar otherwise qualified service providers 
if conscience prevents them from facilitating abortion and 
contraception. USAID is increasingly requiring contractors to 
provide contraception in a range of international relief and 
development programs.
    The Federal Department of Justice has started filing briefs 
actively attacking DOMA's constitutionality, claiming that 
supporters of the law could only have been motivated by 
bigotry. DOJ needlessly attacked the very existence of the 
ministerial exception before the Supreme Court, in opposition 
to a vast coalition of religious groups urging its 
preservation. At the state level, most recently in New York and 
Illinois, religious liberty protections associated with the 
redefinition of marriage have fallen far short of what is 
necessary.
    The root causes of these threats are profound, but we can 
and must treat the symptoms immediately, lest the disease 
spread so quickly that the patient is overcome before the 
ultimate cure can be formulated and delivered.
    As to the preventive services mandate, I urge the passage 
of the bipartisan Protect Life Act, Abortion Non-Discrimination 
Act, and Respect for Rights of Conscience Act. We welcome 
recent House action on some of these bills.
    The illegal conditions that government agencies are placing 
on religious providers of human services may call for a 
Congressional hearing or some other form of investigation to 
ensure compliance with applicable conscience laws, as well as 
to identify how these new requirements came to be imposed. 
Additional statutes may be appropriate to create new 
protections of conscience or private rights of action. 
Unfortunately, enforcement of the existing protections now lies 
principally with the very Federal agencies that may be 
violating them.
    This body should reject the so-called Respect for Marriage 
Act and continue to defend DOMA in court as long as necessary. 
Moreover, DOJ's decisions to abandon both DOMA and the 
ministerial exception seem to warrant congressional inquiry. To 
the extent that state adoption and foster care services are 
federally funded, this opens an avenue for protecting the 
religious liberty of faith-based service providers which should 
be explored more fully.
    Thank you for your attention, and again, for your 
willingness to give religious freedom the priority it is due.
    [The prepared statement of Bishop Lori follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Thank you, Bishop Lori.
    Reverend Lynn, thank you for being with us this afternoon. 
You are recognized for 5 minutes, sir.

TESTIMONY OF BARRY W. LYNN, REVEREND, AMERICANS UNITED FOR THE 
                 SEPARATION OF CHURCH AND STATE

    Reverend Lynn. Thank you very much, Mr. Chairman.
    Mr. Franks. Reverend Lynn, would you make sure that 
microphone is on?
    Reverend Lynn. How is this?
    Mr. Franks. That sounds good.
    Reverend Lynn. All right. Thank you, and thank you for 
holding this hearing.
    We have a dizzying level of religious freedom in this 
country, and even more so if you happen to be a member of a 
well-established or majority faith in America. There is no war 
against Christianity being waged by elected officials, or even 
by Federal courts.
    The real threat to religious liberty comes from those who 
seek special government blessings for those in favored faiths 
and conversely the treatment of members of other faiths as 
second-class citizens.
    When real religious freedom is denied, we can look very 
ugly in America. When Muslims in Murfreesboro, Tennessee tried 
to erect a mosque and a lawsuit backed by the lieutenant 
governor claimed that Islam is not a true religion, we can look 
ugly.
    When members of the community in Katy, Texas protested the 
construction of a mosque by staging pig races next to the 
property, we can look ugly.
    When the Park 51 Muslim Community Center wants to erect a 
building on its own land and the American Center for Law and 
Justice sues to prevent them from doing so, we can look ugly 
and even hypocritical.
    When religious freedom is delayed, we can look like a very 
coarse America. It took 10 years and a lawsuit from Americans 
United before the widow of U.S. Army Sergeant Patrick Stewart, 
killed in Afghanistan, was permitted to put a pentacle, a 
Wiccan sacred symbol, on her husband's memorial marker in a 
Nevada veterans cemetery. The VA in previous Administration 
refused to add that symbol to the 38 other emblems of honor 
because a top official there had heard Commander-in-Chief 
George W. Bush say on television that he didn't think Wicca was 
a real religion.
    And how coarse that in Johnson County, Tennessee, when an 
atheist seeking merely to put up an historical display about 
the Constitution's guarantee of religious freedom in an open 
forum area of the courthouse is denied access and a 
commissioner says, ``This is a good Christian community that 
welcomes people who move here. But if you want to attack God, 
you should leave.'' I wonder if that official would tell a 
firefighter putting out a blaze in his house to leave if he 
learned that that brave rescuer happened to be a freethinker.
    When religious practice is compelled, we can look like a 
theocratic America. Bay Minette, Alabama offers certain 
offenders the so-called ``option'' to avoid jail or fines by 
going to church every week for a year.
    Recently, Americans United reached a settlement with the 
heavily government subsidized Central Union Mission in the 
District of Columbia to end their practice of not allowing 
those in need to eat lunch or have a bed for the night unless 
they agreed to attend a worship service.
    When government supports religious preferences in hiring 
with tax dollars through the faith-based initiative, and two 
Administrations allow religious groups to give special 
preference to people of their own religion, we can look like a 
discriminatory America.
    World Vision is one of the largest recipients of grants 
from the U.S. Agency for International Development. Government 
grants amount to about a quarter of that organization's total 
U.S. budget. Yet this organization will hire only those who are 
Trinitarian Christians even in predominantly Muslim or Hindu 
countries, arguing ``that we're very clear from the beginning 
about hiring Christians. It's not a surprise, so it's not 
discrimination.'' Collateral to that, there are over 200 
special exceptions and exemptions in Federal law for religious 
groups today. Now some groups, as we've heard, are seeking even 
more exemptions, ones that can cost vulnerable people good 
health care.
    When certain expansive exemptions are passed, we can look 
like an America of special privilege for the powerfully 
connected, and sometimes these exemptions can make America look 
dangerous. A bill that just passed this House would actually 
permit medical workers to refuse to serve a patient even in a 
medical emergency. Under this proposal, a woman who needs an 
abortion to save her life may simply be left to die if the 
medical facility has a staff full of people who disapprove of 
abortion.
    Let us not be fooled. You may hear some holy horror stories 
with, at most, a scintilla of truth. You may hear claims of 
rights being violated that do not really exist, with remedies 
proposed that are merely an excuse for obtaining special 
treatment. You will hear Biblical tenets used to justify 
legislation where the real basis for decision-making must not 
be holy scripture, as anybody understands it, but the core 
constitutional values shared by all of us.
    In conclusion, there is an actual movement of several 
organizations in America to try to ban the use of sharia law in 
the courts. Sharia law is not the threat. The actual threat is 
that there are serious efforts afoot to try to twist the 
purpose of our own Constitution, and in this twist we will defy 
George Washington's promise that we would ``give to bigotry no 
sanction.'' We would degrade James Madison's claim that in this 
country we cherish, in his words, ``the mutual respect and good 
will among citizens of every religious denomination.'' That 
would not only make America look exclusionary, it would make it 
so, and that would be the ultimate tragedy for religious 
freedom in our country.
    Thank you.
    [The prepared statement of Reverend Lynn follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ATTACHMENTS
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Franks. Thank you, Reverend Lynn.
    And now, Mr. May, you are recognized for 5 minutes, sir.

  TESTIMONY OF COLBY M. MAY, ESQ., DIRECTOR & SENIOR COUNSEL, 
     WASHINGTN OFFICE, AMERICAN CENTER FOR LAW AND JUSTICE

    Mr. May. Thank you, Chairman Franks, Ranking Member Nadler, 
and Members of the Constitution Subcommittee, for the 
opportunity to participate in this important hearing on the 
state of religious liberty in America today. As Edmund Burke 
rightly noted during the American founding, eternal vigilance 
is the price of liberty, and today's hearing is a necessary and 
valuable part of that vigilance.
    The American Center for Law and Justice, the organization I 
represent today, defends religious liberties throughout the 
world. Nowhere is our effort more profound, however, than here 
at home. This Nation's founders cherished religious liberty and 
built our country on the assurance that America would be free 
to practice the religion of their choice without the fear of 
government interference. While the liberty to practice one's 
religion is greater in this country than in any other, 
conflicts between religious liberty and other interests do 
exist. In this conflict, many of our fundamental rights are 
sustained through the efforts of Congress and state 
legislatures. Others must be defended daily in the courts of 
our Nation.
    In several areas, as Congressman Nadler noted, Congress and 
the courts have, in fact, successfully protected religious 
liberty in many ways, legislation such as the Religious Freedom 
Restoration Act that Congressman Nadler mentioned, the 
Religious Land Use and Institutionalized Persons Act, Title VII 
of the Civil Rights Act and, of course, the Equal Access Act. 
These are all good examples.
    But with these successes, however, issues of controversy 
remain where courts have curtailed religious liberties. Among 
the most controversial are within the public schools and 
universities of our Nation. University speech codes, meant to 
create an environment in which all students can partake in the 
educational experience free from discrimination and harassment, 
have severely undermined religious liberties. In fact, 
religious students and groups can be prevented from sharing 
beliefs with other students out of fear of being charged with 
harassment. Vague policies deter students from espousing 
beliefs on issues of public concern such as the definition of 
marriage, gender roles, and absolute religious truth. Courts 
have given public university officials the power to punish 
students on the grounds that their religious speech is 
insulting or that it disrupts communal living.
    Court decisions such as the Supreme Court's recent 
Christian Legal Society v. Martinez and the 11th Circuit's 
decision earlier this year in Alpha Delta v. Reed also restrict 
religious freedom on public colleges and school campuses. In 
upholding school policies that require religious groups to open 
their leadership positions to students who do not share the 
group's beliefs essentially destroys the equal right to 
associate freely with like-minded individuals as a recognized 
religious school group. Religious groups must now either open 
their leadership posts to those who revile and ridicule their 
deeply held religious beliefs, or they must cease to exist. Or, 
if they exist, they must do so as second-class citizens, 
ineligible for the benefits received by officially-recognized 
organizations.
    The right of parents to direct and protect their children's 
religiously-based morals is another battleground. Religious 
parents who send their children to public school often find 
their religious morals contradicted by sex education courses, 
for example. Courts have allowed school districts to expose 
young children to sexual behavior that many religious parents 
and, in fact, many parents in general oppose.
    Who can forget the ruling in Brown v. Hot, Sexy and Safer 
Productions where, during a mandatory-attendance AIDS 
prevention presentation, students were informed they were going 
to have a group sexual experience with audience participation; 
where profane, lewd, and lascivious language was used to 
describe body parts; and where oral sex, masturbation, 
homosexual sexual activity, and condom use during promiscuous 
premarital sex were advocated and approved? Few school 
districts provide opt-out options for parents, and even fewer 
schools inform parents as to when such controversial courses 
will be taught. In fact, the 1st Circuit's ruling in Hot, Sexy 
and Safer Productions held that children have no right to be 
free from exposure to vulgar and offensive language or debasing 
portrayals of human sexuality.
    These issues provide merely a glimpse into the many areas 
where religious liberty faces problems in our country. In light 
of ever-changing discrimination laws and harassment policies, 
religious people continue to face a troublesome choice: violate 
deeply held religious beliefs, or receive punishment from the 
state and local officials. Undoubtedly, religious adherents 
will continue to face such dilemmas in the future.
    The courts and the judges that preside over them will 
obviously largely determine the outcome of America's religious 
liberties. But the battle to maintain broad and robust 
religious liberties falls on each of us. In a speech to the 
military in 1789, President John Adams explained that the very 
nature of our constitutional government is being dependent upon 
religious and moral values. So I commend the Committee to read 
that quote which I provided in my statement to all of you.
    Now, look, undoubtedly religious liberty has been and 
always must be the crucial cornerstone upon which our freedoms 
rest. Without it, as President Adams warned in that speech, we 
are doomed.
    I thank the Subcommittee for a chance to participate in 
today's hearing. I look forward to any questions or discussions 
we may have. Thank you.
    [The prepared statement of Mr. May follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Franks. And I certainly thank all the witnesses.
    We will now begin with the questioning time, and I will 
recognize myself for 5 minutes, and I will begin with you, 
Bishop Lori, if I might.
    I know social work is a large part of the Catholic Church's 
mission. However, it appears that some of the government 
policies related to private social services are increasingly 
failing to make exceptions for sincerely held religious 
beliefs.
    What is the impact of that failure to make exception for 
religious beliefs having on the Church, especially as it 
relates to medical services and adoption and foster care? What, 
in practical terms, is it doing to you?
    Bishop Lori. Sure. Indeed, providing social services is 
integral to our mission. It flows from preaching the Gospel, 
celebrating the sacraments, and that is what sustains and 
motivates the work that we do.
    What is beginning to happen as the result of exemptions--
for example, the HHS exemptions for private health insurance 
plans--is that we are worried that if those rules become 
enforced, we will be hindered in our ability to provide health 
insurance services for our employees. Also, in some states such 
as Massachusetts and Illinois, because of the convictions of 
Catholic Charities organizations about the nature of marriage, 
they have been driven out of adoption services and foster care 
services. I guess those would be kind of some of the examples 
I'd like to cite.
    Now, at the larger level, Catholic Relief Services has been 
denied a contract by USAID because of a newly added rule that 
it would have to provide access to so-called reproductive 
services in order to qualify. And so Catholic Relief Services, 
which has a splendid record of serving the poorest of the poor. 
The same with Migration and Refugee Services. They too are 
being driven out of, or not able to compete for, government 
contracts because of their convictions about human life and 
about contraception. And so, as a result, they've been taken 
off the playing field, if I could put it that way.
    That was not terribly articulate, but I hope you get the 
point.
    Mr. Franks. I get the point, absolutely. Thank you, Bishop, 
for all your good work, sir.
    Mr. May, if I might switch gears here a little, as you 
know, I am one of the co-chairs of the Religious Freedom Caucus 
here in the Congress. And, of course, as we look across the 
world, it is not just direct persecution of a particular faith, 
but sometimes the anti-discrimination laws in a particular area 
are used to keep someone from criticizing a religious 
perspective, and I certainly believe a person has a right to 
criticize my faith or to examine its veracity, and they do on a 
regular basis.
    So I want to ask you a question along those lines. It is a 
challenging question. But last week, the Daily Caller and 
others reported that certain Islamic religious groups met with 
the Department of Justice and recommended that there be 
cutbacks in anti-terrorism funding, curbs on investigators and, 
for our purposes, ``a legal declaration that U.S. citizens' 
criticism of Islam constitutes racial discrimination.''
    Now, Mr. Tom Perez, the head of the Civil Rights Division, 
said, ``We must continue to have this critical dialogue.'' He 
said in another place, ``I sat there the entire time taking 
notes and I have some concrete thoughts in the aftermath of 
this.''
    My concern is it sounds like the first steps in 
implementing blasphemy laws, as you see in India and other 
places, where if someone expresses a different faith 
perspective, that it is called blasphemy, and something in this 
country has fought against, obviously, all over the world, with 
the exception, of course, in this case of Mr. Obama's 
sponsorship of a resolution at the United Nations with a member 
of the Organization of Islamic Conference, which urged exactly 
these kinds of anti-free speech measures.
    So my question is this: Does the First Amendment permit our 
government to abridge the free speech rights of everyone by 
permitting a blasphemy law that is the banning of all speech 
critical to a particular religion, and why or why not? What are 
the implications?
    Mr. May. Yeah, I think the answer's pretty simple, no. And, 
in fact, I'd be shocked if the Department of Justice held a 
different point of view. If they did, I think they probably 
ought to be before this Committee to explain that particular 
point of view.
    Let's not overlook the obvious. It seems to me that when 
people come together in their religious communities, it is an 
affirmation of positive things, worthwhile things for society. 
It is also true that those communities believe that some things 
are better than others, and when they articulate that they 
believe, for example, that all are created in the image of God 
and all are worthy of his love and respect, including women in 
that context, you've got to wonder where a proposal where you 
equate, if I heard you right, the criticism of Islam is equal 
to racial discrimination?
    Mr. Franks. Asking--let me repeat the quote, ``a legal 
declaration that U.S. citizens' criticism of Islam constitutes 
racial discrimination.'' They are asking the Department of 
Justice for this.
    Mr. May. Yeah. I mean, it's rather shocking that that could 
be the kind of proposal in the face of our First Amendment 
because, remember, there is discussion all the time among 
diverse groups in America. That's known as pluralism, and it's 
actually a very healthy and a good thing. Sometimes it gets a 
little robust. Sometimes maybe there's smoke rather than light. 
But the reality is that's what we need the First Amendment for, 
to be able to figure out ways to be able to work together and 
build a consensus that makes the kind of country we have today.
    Mr. Franks. Well, obviously, if we ban critical speech of 
any religion, then wouldn't that law, by definition, muzzle the 
proponents of all other religions whose basic tenets may be in 
conflict with that religion? It is one of those things where 
free speech sometimes requires that people like me that have a 
religious faith are going to have that faith challenged.
    With that, I am out of time. It always gets away quicker 
than I like. I would like to now yield to the Ranking Member 
for 5 minutes.
    Mr. Nadler. I thank the Chairman for yielding.
    Bishop Lori, 2 years ago, a justice of the peace in 
Louisiana refused to marry an interracial couple. When he 
resigned he said, ``I would probably do the same thing again. I 
found out I can't be a justice of the peace and have a 
conscience.'' Do you support his right to do that and keep his 
job, to refuse to marry an interracial couple?
    Bishop Lori. I believe that first of all, we have to make a 
very careful distinction between same-sex marriage, which is 
based upon the difference of----
    Mr. Nadler. We will get to that in a minute.
    Bishop Lori. All right.
    Mr. Nadler. Let me just--answer the first question first, 
please.
    Bishop Lori. All right. The answer is no. I believe that 
marriage between people of two different races is an entirely 
different matter than same-sex marriage, and so I would----
    Mr. Nadler. But you would say that the state has the right 
to expect its employees to enforce its law, which says that 
interracial couples may marry by issuing a license?
    Bishop Lori. I would say, in the case of interracial 
marriage, yes.
    Mr. Nadler. Yes. Okay. Now let me get to the second half.
    Bishop Lori. All right.
    Mr. Nadler. Why, then, given what you just said, is it not 
legitimate for public employers to require their employees to 
fulfill their job duties in other contexts, including providing 
a license to a same-sex couple if the law of the state or the 
jurisdiction provides for marriages of same-sex couples?
    Bishop Lori. For example, in the State of New York, there 
are county clerks I know that are getting penalized for their 
refusal to go along with this.
    Marriage is a unique relationship. It takes a man and a 
woman. That is what a lot of people, a lot of Americans 
believe, what a lot of people of faith and reason believe. It 
is a unique relationship of husband and wife, the only 
relationship capable of producing children.
    Mr. Nadler. Okay. But that----
    Bishop Lori. We believe that----
    Mr. Nadler. I am not going to--I have a very limited amount 
of time. We understand that view. We have heard it many times.
    Bishop Lori. Okay. It is, then, a religious conviction.
    Mr. Nadler. Yes.
    Bishop Lori. And it is very troubling when this religious 
conviction----
    Mr. Nadler. But the question is----
    Bishop Lori [continuing]. Born of faith and reason is 
portrayed as bigotry.
    Mr. Nadler. I am not portraying it as bigotry. I am not 
suggesting that. I haven't mentioned the word. I am asking a 
different question.
    People have various different religions. You stated that it 
is the right, in your opinion, of the state, having passed a 
law that allows interracial marriages, to say that the 
religious belief or the conscientious belief of a state 
employee cannot trump that, that either he issues a license or 
he can't hold that job, and that is a legitimate thing for the 
state to do.
    The question is, given that, why does the same reasoning 
not hold with respect to a county clerk or whatever, with 
respect to same-sex marriage? We understand that he has a 
religious belief which I am not going to debate the validity 
of, obviously. It is his religious belief. He is entitled to 
it, and it is protected, but it prevents him from doing a 
ministerial duty which the state has requires him to perform. 
Why is that situation different from the first situation, other 
than someone's opinion as to the validity of one religious 
belief and not the other?
    Bishop Lori. Well, by asking the question as you did, I 
think you're drawing a parallel between racial discrimination 
and same-gender marriage, so-called marriage.
    Mr. Nadler. Well, no, I am not drawing a parallel. The 
State of New York or some other state made a decision. Why is 
it religious discrimination to hold its employee in one case--
--
    Bishop Lori. We believe religious liberty is an individual 
right and that a person has a right to bring his religious 
convictions into the workplace, and that he has a right not 
only to believe them privately but also to act upon them, and 
that religious conviction should be broadly accommodated.
    Mr. Nadler. But then why can that person not refuse to 
perform the interracial marriage if that is his religious 
belief?
    Bishop Lori. Because marriage, the relationship between a 
man and a woman, is different----
    Mr. Nadler. All right. So, in other words, because one 
religious belief----
    Bishop Lori [continuing]. Is different than relationship of 
a man and a woman who happen to be of different races.
    Mr. Nadler. Thank you. In other words, because one 
religious belief is more valid than the other is what you are 
saying.
    Let me ask you this. Does an insurance company, a for-
profit entity incorporated for the purpose of engaging in 
commerce, have the same religious liberty right as a not-for-
profit religion?
    Bishop Lori. I think that an insurance company that wishes 
to serve entities that have reservations about what should be 
covered in its health care plans ought to be accommodated.
    Mr. Nadler. All right. Let me ask you--my time is running 
out. I have one question for Reverend Lynn. You are an ordained 
minister who is obviously committed to religious liberty and 
free exercise. You are also an attorney with expertise in 
constitutional law. Tell me why you oppose allowing a religious 
organization to apply religious criteria to Federally-funded 
jobs and why you think this is a threat to religious liberty, 
please.
    Reverend Lynn. I think it's a threat, Congressman Nadler, 
because once you enter into a relationship where the government 
funds your religious ministry, that in that part of the 
ministry that is funded by tax dollars, there cannot be an 
assumption that, or a policy that, dictates that those persons 
are exempt from other civil rights statutes.
    When you get the money from the Federal or state 
government, then I think you're obligated to follow the 
precepts not of your own denomination or your own faith 
community but the requirements of, in most instances, Federal 
law, which does not permit discrimination based on religion, 
creed, color, and several other well-known factors.
    So I see this as not in any way inhibiting the power of 
ministries to do what they want to do with their own dollars, 
with the money that they collect in the collection plate. But I 
think the equation changes dramatically when Federal funds 
enter the picture. You cannot simply then say I'll take the 
money but I won't take any restrictions, I won't take any 
adherence to the core civil rights principles of our country. 
That is a stretch of anyone's imagination to find that as a 
matter of religious freedom. That's pure and simple 
discrimination with the tax dollars that come from all of us, 
including some of those job applicants, for example, who may 
fall outside of the favored community from which they choose to 
hire.
    Mr. Nadler. I thank you. My time has expired. I yield back.
    Mr. Franks. I thank the gentleman.
    And I now recognize the gentleman from Iowa, Mr. King, for 
5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I thank all the witnesses for your testimony.
    And I would first remark what goes through my mind when I 
hear the advocacy from the gentleman from New York about 
conscience protection, and I would think that if it is the 
position of anybody in this country that one would be compelled 
to carry out a marriage of same-sex couples if that violates 
your religious convictions, if it violates a sacrament of the 
church, for example, or if one is compelled as a pharmacist to 
distribute birth control against one's religious beliefs, if 
that is the position, and I am hearing that position 
consistently in this Committee, then I would suggest that when 
you put the shoe on the other foot, if you have a prison warden 
whose job it is to carry out an execution, would the advocates 
for the elimination of conscience protection also argue that 
that prison warden should be compelled to carry out the 
execution if it violated his conscience? And I would turn that 
question to Bishop Lori.
    Bishop Lori. I would agree with your observation, 
Congressman. It seems to me that conscience protection has 
always been a part of our way of life. The idea is that because 
one works for the government, one has to check one's conscience 
at the door, whether those are conscientious objections to 
abortion or to same-sex marriage or to capital punishment, or 
even the service of the undocumented. It seems to me that these 
things have always been broadly accommodated and they should 
continue to be broadly accommodated. That's one of the things 
that has made our country great.
    To paint conscientious objections to things like abortion 
or contraception or same-sex marriage as discriminatory really 
flies in the face of what religious liberty is. It means the 
right to bring our convictions into the public square, a right 
to act upon them, a right not to be compelled to do things 
which we consider to be inherently wrong. And anybody in a 
repressive society can believe what he wants privately, but in 
a free society you can bring your convictions out into public.
    Mr. King. Bishop, if an individual or a group of 
individuals actively engaged in or promoted the idea of 
desecrating the eucharist, would that be a direct affront to 
the church?
    Bishop Lori. It would indeed, of the most serious nature.
    Mr. King. And of the sacraments of the church, would you 
name the seven sacraments first, please?
    Bishop Lori. Sure. Just like my confirmation classes. 
Baptism, confirmation, eucharist, penance, anointing of the 
sick, marriage, and holy orders.
    Mr. King. And you learned it as last rites and had to 
change that----
    Bishop Lori. Yes, and it used to be called extreme unction. 
It's called----
    Mr. King. Even further back. I just wanted to make that 
point, that when there is an active effort to desecrate a 
sacrament of the church, that is a direct insult and affront to 
the Catholic Church.
    Bishop Lori. Absolutely.
    Mr. King. And marriage, of course, clearly is one of the 
seven sacraments----
    Bishop Lori. Marriage is recognized as a sacrament. First 
of all, it's recognized as something of a natural relationship, 
inscribed in our nature by the Creator, that has served the 
common good and is a pillar of civilization. It's a unique 
relationship of a man and woman. The Church has also recognized 
it as a sacrament because the love of husband and wife 
expresses the love of Christ for the Church.
    Mr. King. Let's explore another principle, and that is as I 
am hearing this blurred approach to the implication that civil 
rights extend to same-sex marriage, for example, and I would 
like to explore a little bit the concept of immutable 
characteristics that were the foundation of the Title VII of 
the Civil Rights Act. These are the protection for race, color, 
religion, sex, national origin, religion being the only one of 
those in the list that is specifically constitutionally 
protected. The balance of them are immutable characteristics 
that can be independently identified and cannot be willfully 
changed.
    When we go beyond the definition of immutable 
characteristics, then could you talk to us a little bit about 
what that does to this concept of civil rights and equal 
protection?
    Bishop Lori. Sure. It seems to me that when you take an 
institution such as marriage and you redefine it arbitrarily, 
then you are taking something that is not only long established 
but unique and for the common good of society, and you are 
cutting it loose from its moorings. Marriage is not simply--
it's not as if you could make one change and that is it. The 
notion of what marriage is appears throughout Federal law. It 
appears in state law. It appears in regulations. It affects how 
church and state relate in a broad variety of ways, and by 
arbitrarily redefining it, you're cueing up church/state 
conflict for years to come, because marriage is so broadly 
referred to throughout American law.
    Mr. King. Thank you, Bishop. I thank all the witnesses. I 
regret I was not able to ask questions of the balance of the 
panel and I yield back.
    Mr. Franks. Thank you, Mr. King.
    Mr. Quigley, you are now recognized for 5 minutes, sir.
    Mr. Quigley. Thank you, Mr. Chairman.
    Bishop, I respect and truly appreciate your--and the term 
you used was ``religious conviction.'' You can recognize the 
same sort of religious conviction worked the other way for a 
long time. I mean, it wasn't until the '60's that the Loving 
case was decided about interracial marriage in the United 
States. And for, let's just say, a chaplain in the military 
whose religious beliefs are different, and they have the same 
religious conviction you have, that a same-sex marriage is part 
of their faith, don't you see the similarities? Don't you see 
that their passion and their beliefs, however strongly you 
disagree with them--the Constitution doesn't say because the 
majority faith or the majority public--I think you used ``a lot 
of people'' were the actual words you used--believe this is 
what marriage is, but that is not what the Constitution 
protects. The whole point of the Constitution was to protect 
minorities, those who disagree. I don't think you need to 
protect popular belief.
    Don't you respect their faith, their religion, that they 
believe that this is the right thing to do? Inasmuch as you 
want me to protect those who can say no to marrying a same-sex 
couple, don't you want to defend those who have the opposite 
belief? I know you can't put aside your faith and your 
position, but if you are in this seat, don't you understand 
that difference?
    Bishop Lori. I respect individuals, and I respect their 
dignity, and I certainly assume good will. At the same time, 
one of the primary reasons why the state has an interest in 
marriage is because of its contribution to the common good. 
It's unique. In other words, I respect individuals who might 
hold a differing view, but I would also maintain stoutly as a 
matter of faith and reason that marriage is something not 
subject to redefinition.
    It is a unique relationship of a man and a woman, the only 
one capable of producing children, and there is a great 
interest on the part of the state in stable homes where 
children learn to relate to male and female role models and are 
invested with the virtues of citizenship. And I would also 
recognize that marriage, as understood as a man and a woman, is 
an essential building block for the Church as well. It's always 
been recognized as the fundamental----
    Mr. Quigley. Well, look, I respect we will have that 
difference. I apologize because we have the time limit 
situation.
    Bishop Lori. All right.
    Mr. Quigley. Same-sex couples I know are in long-term 
relationships. They love their kids. They are also involved 
with the orderly distribution of property, which has a lot to 
do with marriage, and we still allow sterile couples to get 
married, and they can't have kids.
    But aside from that, we talk a lot too about Islam. It was 
interesting that the first aspect of that had to do with laws 
equating criticizing Islam with bigotry. But I want to ask all 
three of you, if you have time, what would you say to young 
Muslims in America, in a country where, unfortunately, I think 
the number is about 30 percent of the American public doesn't 
think Muslims should be able to become president of the United 
States, the last surveys I saw, and that they should have to 
wear identification, and that their hate crimes are wildly 
high, disproportionate to their population. Respecting their 
faith, Bishop, if you were us, what would you say to those 
people?
    Bishop Lori. Well, the Roman Catholic Church nationally and 
internationally conducts dialogues with the Muslim community 
and its inter-religious relationships seek to promote 
understanding and peace and respect for various religions and 
cultures. It would not condone any use of religion to promote 
violence, as sometimes happens, but that would be true across 
the board.
    Mr. Quigley. Reverend May, Mr. May--I'm sorry. Mr. May, 
what would you say to young Muslims who are experiencing this 
in our country?
    Mr. May. I would tell them work hard, become president of 
the United States. There's no reason you can't otherwise do so. 
Certainly, discrimination in the senses of----
    Mr. Quigley. Do you feel bad for them? Do you want to 
apologize for what they are going through, kids who are abused 
because of their hair coverings or denied jobs?
    Mr. May. Well, I suppose if you'd be willing or others 
would be willing to apologize for the kind of affront that goes 
on to religious values in the public schools, Hot, Safer and 
Sexy. I mean, we're going to do this sort of like let's teach 
kids how to do these things, that's otherwise----
    Mr. Quigley. I am certainly not suggesting that two wrongs 
make a right, if you're equating that----
    Mr. May. Oh, no, no. But in response to your question----
    Mr. Quigley. What do you say to American Muslim children 
who face discrimination? Do you apologize to them?
    Mr. May. Sorry. We were talking a little bit----
    Mr. Quigley. I'm sorry. I apologize. Do you apologize to 
anybody whose faith, they are being discriminated against 
because of their faith?
    Mr. May. If they're, in fact, being discriminated by the 
government, absolutely. We abhor that.
    Mr. Quigley. How about by anybody?
    Mr. Franks. The gentleman's time has expired.
    Mr. May. Well, it depends on what you mean by 
discrimination, because the idea that people are different is 
not a form of discrimination. But certainly I think everybody 
should be treated with dignity and respect and kindness. That's 
exactly the way I think we get along and make a better world.
    Mr. Franks. The gentleman from Ohio, Mr. Chabot, is now 
recognized for 5 minutes.
    Mr. Chabot. Yeah, I am going to give half of my 5 minutes 
to Mr. Jordan because I know we have got votes on the floor 
here, I believe. Is that right? Or no? All right. Excellent. I 
will still give you half of it.
    All right. You know, some interesting points made down 
there, and certainly everybody, all religions, ought to be 
treated appropriately here in the United States. And as 
Chairman of the Middle East and South Asia Committee, I would 
make the point that if there are any apologies that are owed, 
perhaps the way the Coptics are being treated in Egypt right 
now on this very day, Coptic Christians, it is unbelievable 
what is happening over there, and the world has virtually 
ignored it.
    Bishop Lori, you had mentioned about conscientious 
objection, and it certainly brought to mind that we allow 
people who conscientiously object to war to not have to go over 
and fight in the battles of this country as long as they object 
to all wars, and that has been ingrained in the way we do 
business in this country for a long, long time.
    Mr. May, let me ask you quickly. In your written testimony 
you discuss university speech codes and the threat they pose to 
religious groups on college campuses. Have university speech 
codes often gone from protecting non-religious students from 
discrimination to actually discriminating against religious 
students and religious student groups? And if so, do you have 
any examples of that?
    Mr. May. Sure. The 9th Circuit reached a decision called 
Truth v.--I can't remember the school district's name now, but 
a school district. And that would essentially disqualify a 
religious club simply because they used the word ``truth.'' It 
was felt that using the word ``truth'' in the context of this 
Christian club would offend all of the other student groups, 
and therefore they couldn't have it. There wasn't any further 
explanation than the idea of affront or this lack of 
communalism, if you will. And so the 9th Circuit said, well, 
that's perfectly appropriate because their job is to make sure 
that the environment is as free as possible of harassment.
    Mr. Chabot. Thank you. And Bishop Lori, I know you got into 
your arguments relative to marriage with Mr. Nadler over there, 
and he sort of cut you off, not that he intended to cut you off 
but he only had a limited amount of time. He would never cut 
anybody off. But did you need any additional time to advise us 
on that?
    Bishop Lori. I think I'd simply just like to make it clear 
that support for traditional marriage between a man and a woman 
has nothing to do with, has no resemblance to, racial 
discrimination, and it is a great injustice to people who 
believe in traditional marriage as a matter of faith and reason 
to paint it as such. That's exactly what the Department of 
Justice has done in its attack on DOMA.
    What we are finding, then, is that those convictions about 
marriage are beginning to creep into regs, bureaucratic regs, 
and these things are beginning to hamper our ability to 
function and to serve. And I think that at the very least, the 
Church as individual people and churches that believe in 
traditional marriage should be very broadly accommodated. But I 
also believe that for the common good of our country, we would 
do well to support traditional marriage, and the stronger these 
traditional homes are, the more social problems we cut off at 
the pass.
    There are a lot of data that children in homes of divorced 
and single-parent homes have a lot of problems, and that one of 
the best things we can do for our kids is to give them a stable 
home with a mom and a dad. That does not disrespect anybody. It 
just goes to the unique nature of what marriage always has been 
and always will be.
    Mr. Chabot. Thank you very much, Bishop.
    I will yield, although it is not a lot of time, Jim.
    Mr. Franks. The gentleman is recognized.
    Mr. Jordan. If we go to the other side and back----
    Mr. Franks. Certainly.
    Mr. Jordan [continuing]. We may have enough time.
    Mr. Franks. Certainly, certainly.
    Mr. Jordan. Thank you. I will yield back to my colleague if 
he wants his remaining time.
    Mr. Franks. Recognize----
    Mr. Chabot. Okay, I will yield back.
    Mr. Franks. Recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Bishop Lori, I am not sure I quite understood. I am from 
Virginia, where traditional marriage was same-race marriage 
until those lifetime-appointed liberal activist Federal judges 
violated the will of the people and said that you couldn't do 
that anymore, you had to allow different-race marriages.
    Now, we redefined marriage at that point. Was that a bad 
thing?
    Bishop Lori. You did not redefine marriage. You simply 
recognized the natural right of a man and a woman who happened 
to be of two different races to marry.
    Mr. Scott. There was some very devoutly religious people 
that felt that traditional marriage did not include mixed-race 
marriages.
    Bishop Lori. Yes, but it was not a redefinition of 
marriage.
    Mr. Scott. Reverend Lynn, was that a redefinition of 
marriage?
    Reverend Lynn. That was a redefinition of marriage, and it 
could happen again. And as we talk about marriage, I find 
myself in an interesting position. People talk about these 
theories. I am an ordained minister in the United Church of 
Christ, and Mr. King, we only have two sacraments. That would 
be communion and baptism. We have three, and matrimony.
    As a United Church of Christ minister, I cannot perform 
marriages that I happen to want to perform. I have a list of 
people, literally, who would love to have me perform their 
weddings, but they can't because state law prohibits that. They 
cannot be married.
    I think a redefinition of this would, among other things, 
allow the clergy, like myself, of whom there are many in this 
country who would like to and feel it important to perform 
same-sex marriages, we would finally have the right to do so.
    So my conscience is violated when I am denied by the power 
of the state to perform the very marriages that people want in 
order to form the kind of unity, and families with adopted 
children in many instances, that do serve this community and 
this country very well.
    Mr. Scott. Now, Reverend Lynn, if the congregation gets 
together and raises money to advance their religion, would 
employment discrimination in favor of people of their religion 
that understand the religion that they are trying to advance, 
does employment discrimination based on religion make sense?
    Reverend Lynn. Yeah, I would oppose the idea. I believe 
that you hire the best people for the job that you're seeking 
to hire for. But on the other hand, if this is all private 
money, if this is the money from the collection plate, I think 
the courts are pretty clear they can then hire in many, if not 
all, positions for--on the basis of religion. The calculus 
changes when it comes to cash coming from all the taxpayers.
    Mr. Scott. And if they are using it for congregational 
purposes to advance their religion, it makes sense that people 
would understand the religion they are trying to advance. How 
does the calculation change if you are using Federal money?
    Reverend Lynn. Well, because I think that the great 
strength of American religion is that it has been voluntary. We 
depend upon the contributions that are made by like-minded 
people. We have not until recently assumed that we deserve as 
churches or religious institutions to somehow go to the same 
trough to receive Federal money that some other organization 
does.
    I think the great strength of religion in this country is 
that it does seek its funding from private sources. When it 
goes to the government and asks for its dollars, then I think 
collateral to it is a recognition that it must obey its laws, 
including its civil rights standards, which oppose making 
decisions in employment based on religion.
    Mr. Scott. And if a devoutly religious businessman wanted 
to discriminate, why should he not be able to discriminate in 
violation of civil rights laws with his personal money?
    Reverend Lynn. Well, I think, first of all, he can make 
contributions to anybody, including entities that might 
discriminate someplace down the road. But I think this whole 
idea of individuals being able to exercise their religious 
conscience on third parties is a very dangerous trap. That's 
why I don't think we should be talking about the so-called 
``right of conscience'' of receptionists in a hospital to 
refuse to schedule someone to have an abortion, even if he or 
she doesn't approve of it. I think that pharmacies should not 
allow every pharmacist to decide they will not dispense certain 
drugs which may or may not be used, as the Bishop mentioned, as 
abortifacients, which is the way to characterize almost all 
contraception, as abortion-inducing, expanding the exemptions 
that already exist in law.
    So I think it's a dangerous track, Congressman Scott, to go 
down to assume that judgments based on religion can be made by 
individuals, any individual who claims I have a religious basis 
for doing so. We have to be very careful about that standard.
    Mr. Franks. And I thank the gentleman.
    And I now recognize the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. Thank you, and I apologize--I walked in late--
if this question has already been asked. But Mr. May, what is 
the biggest current threat to religious freedom in the country? 
Is it speech codes? Is it employment law? Is it employment 
discrimination? Is it the redefining of marriage? What would 
you say, if you had to rank order, which is the most important? 
Which is the biggest threat?
    Mr. May. Well, obviously it's a wide horizon, I'm sorry to 
say, but I think the first is in the area of conscience, and I 
think it is something that is so important that it's been not 
only respected at times of war in our country when soldiers 
can't move forward and in contravention of their faith kill, as 
it were, we respect it there, and yet we somehow don't want to 
do so when we find individuals in other circumstances that 
present the exact same kind of moral dilemma for them.
    I also think that it is in the context of what we do as a 
society about same-sex marriage. I mean, there are almost 40 
states in this country already have constitutional amendments 
or laws essentially defining marriage and limiting it because 
of the benefits of that specific kind of marriage, one man, one 
woman, and the hope of children. It's good for society, it's 
good for ordered liberty, it's good for freedom. That's why 
states recognize it. And if we turn it on its head and now say 
these 40 states are engaging in a kind of discrimination, it 
really misses the point.
    Mr. Jordan. Let me pick up right where you were there. Is 
it true that some organizations are now defining groups who 
want to make sure marriage remains what marriage has always 
been, want to define those groups as hate groups? Is that 
happening out there right now?
    Mr. May. Oh, absolutely.
    Mr. Jordan. And can you give me some specific organizations 
who are now saying if you want to keep marriage the way 
marriage has always been, somehow you are a hate group?
    Mr. May. Well, I think that the Catholic Church is probably 
the first example of being criticized for it. But groups like 
the American Civil Liberties Union, for example. I'd have to 
ask Barry whether or not his group has taken that point of 
view. But the stridency of the very idea----
    Mr. Jordan. I have been told the Southern Poverty Law 
Center has said the same thing. And when they do that, would 
you argue that that is a chilling effect on religious 
expression?
    Mr. May. Oh, without question, because what it does is it 
essentially, it cuts off any kind of dialogue. I mean, we care 
about in this country discrimination that's invidious. The idea 
is to say you can't do this because of who you are or what you 
represent, not the idea that we segregate ourselves because of 
the values and the morals that we hold, and certainly religious 
expression is the first among them.
    Mr. Jordan. Let me ask you about one other idea, and then I 
know we have got to go vote. But one other question: In our 
state, back when I first got involved in public service, we 
actually passed a school choice law, and we said, in the City 
of Cleveland, that we would allow kids, at that time 
kindergarten through 2nd grade, to get a scholarship. It was 
amazing. It was worth $2,000, and we were spending at the time 
in Cleveland Public Schools about $7,000 per pupil, and we 
allowed kids to get that scholarship to go to the school that 
their parents thought they would get the best education. The 
vast majority, almost all of them, went to Catholic schools in 
the Greater Cleveland area. It was challenged, as you would 
expect, every step, every court, state-level court, Federal-
level court. It went all the way up, and it was challenged on 
the Establishment Clause. It was ultimately held to be 
constitutional.
    Now, I just want your thoughts on it. Do you think that 
that school choice program, as the courts did, meets the 
Establishment Clause requirements, and is something that would 
be--something that is constitutional?
    Mr. May. Well, yes. I think the Supreme Court got it right 
10 years ago when it evaluated the case and upheld it, 
recognizing that, look, if we go through a Lemon type of 
evaluation, we'll recognize first off that this is to 
accomplish a secular purpose. The secular purpose is to provide 
the best education possible.
    The second is we're not intending this to otherwise 
advantage faith over non-faith. It's rather send your kid where 
they can learn the ABC's and how to add, et cetera.
    And last, it doesn't otherwise invite the entanglement of 
the government into the decisions that parents are making for 
their children.
    So I think that voucher cases in that context make perfect 
sense and are constitutionally protected.
    Mr. Jordan. I think it is always interesting to point out 
that specific situation.
    Reverend Lynn. If the Congressman would----
    Mr. Jordan. Just 1 second. The initial sign-up day, there 
were 2,000 spots worth $2,150, and again they were having spent 
on them in the Cleveland Public Schools approximately $7,000. 
But thousands of parents, much more than the available spots, 
lined up to get a chance to get one of those scholarships and 
get some freedom to get to a school where they could get an 
education. I mean, the power of that I think is--that example 
is just pretty powerful.
    Mr. Lynn, I have got a few seconds, but go ahead.
    Reverend Lynn. Yeah. I just--it's kind of like a Mitt 
Romney-Rick Perry moment. I have to say we don't make lists of 
hate groups. We're not involved in that whatsoever.
    Mr. May. I'm glad to hear that.
    Reverend Lynn. And I'm--but I am really shocked by some of 
the comments that my friend, Colby May, has made. We've had 
many debates over the years. Of all the things that have come 
up today, in my testimony I talked about the ACLJ's opposition, 
filing a lawsuit to stop the construction of a mosque on 
property owned by this--it's actually a community center, owned 
by a Muslim group in New York City. I thought we passed the 
Religious Land Use Act, among other things, to make sure that 
we couldn't overstate, for example, historical significance and 
use that to trump the construction of property to be used for a 
religious purpose. But when Mr. May and his group filed a 
lawsuit, I truly was shocked. I mean, I usually don't agree 
with him, but I was shocked by this one because it seems to be 
so inconsistent with his whole rhetoric of we believe in 
religious freedom for everyone, we support everybody's right. 
Apparently not if you're a Muslim in New York.
    Mr. Franks. Mr. May, would you like to respond?
    Mr. May. Oh, yes, sir, I would. I'll direct my comments to 
the Committee because I know I'm not supposed to direct it to a 
fellow witness. But the reality is that I wish Barry would get 
it right, and he just doesn't seem willing to do so, and I 
don't know if it's purposeful on his part or not.
    But our case in New York, Brown v. The Landmark 
Preservation Commission, does not involve the Religious Land 
Use Institutionalized Persons Act. He should know that.
    What we are talking about is whether or not, under the 
unique circumstances of Ground Zero, this particular facility 
should be designated as a monument to the 9/11 catastrophe. 
And, in fact, the people that are involved were first 
responders. Mr. Brown was a first responder, and he is very 
passionate about making sure that we don't forget and that, in 
fact, those buildings that are in the area can otherwise be 
properly landmarked and kept as such.
    We have never argued that the current mosque activity that 
goes on there should be stopped under any circumstances. It is 
rather to determine whether or not, in the unique circumstances 
here, this should be a landmark. It is not about religion. He 
knows it, and why he continues to say that baffles me.
    Mr. Franks. Well, it sounds like you are going to get the 
last word here today, Mr. May. And I want to thank all of the 
people who attended, and all of the witnesses, and all of the 
Members here. The subject is one of profound consequence. 
Nearly every law that we have is based on some religious 
precept, so we had better get it right.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond to as promptly as they can so that their answers may be 
made part of the record.
    Without objection, all Members will also have 5 legislative 
days with which to submit any additional materials for 
inclusion in the record.
    And with that, again, I thank the witnesses, and I thank 
the Members and observers, and this hearing is now adjourned.
    [Whereupon, at 3:58 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Response to Post-Hearing Questions from William C. Lori, 
                        Bishop of Bridgeport, CT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

             Letter from John C. Hagee, Cornerstone Church

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

    Letter from Rajdeep Singh, Director of Law and Policy, The Sikh 
                               Coalition

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

            Prepared Statement of Rev. Dr. C. Weldon Gaddy, 
                    President of Interfaith Alliance

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

 Prepared Statement of Suhag A. Shukla, Esq., Managing Director/Legal 
 Counsel; Samir Kalra, Esq., Director and Senior Fellow, Human Rights; 
and Nikhil Joshi, Esq., Member, Board of Directors, the Hindu American 
                               Foundation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

 Prepared Statement of Joe Solmonese, President, Human Rights Campaign

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

 Prepared Statement of Marc D. Stern, Esq., Associate General Counsel 
        for Legal Advocacy, the American Jewish Committee (AJC)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

Letter from Paul J. Kurtz, Chairperson, and Normal Allen, Jr., Director 
 of International Outreach, the Institute for Science and Human Values 
                                 (ISHV)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                <F-dash>

        Letter from Jon O'Brien, President, Catholics for Choice

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

 Letter from the Most Reverend Timothy M. Dolan, Archbishop of New York

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

 Article titled ``Battle flare between White House. Catholic Groups,'' 
                  by Jerry Markon, The Washington Post

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
